HHS/OIG, Audit -"Audit of Costs and Reporting of Funds Under the Public Health Preparedness and Response for
Bioterrorism Program, Ohio Department of Health,"(A-05-04-00051)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs and Reporting of Funds Under the Public Health Preparedness and Response for Bioterrorism Program, Ohio
Department of Health," (A-05-04-00051)
February 4, 2005
Complete
Text of Report is available in PDF format (263 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our audit were to determine whether the State agency: recorded and reported Centers for Disease Control
and Prevention (CDC) bioterrorism program funds in accordance with the cooperative agreement; ensured that the bioterrorism
preparedness program funds were used for necessary, reasonable, allocable, and allowable costs under the terms of the cooperative
agreement; and did not supplant current State or local funding with bioterrorism preparedness program funds.  We determined
that the State agency properly recorded and reported bioterrorism preparedness program funds awarded, expended, obligated,
and unobligated by focus area in accordance with the cooperative agreement; generally ensured that bioterrorism preparedness
program funds were used for necessary, reasonable, allocable, and allowable costs under the terms of the cooperative agreement;
and did not supplant current State or local expenditures with bioterrorism preparedness program funds.  We recommend
that the State agency: ensure bioterrorism preparedness program activities are funded in a manner to minimize unobligated
fund balances and to achieve bioterrorism preparedness program goals, and ensure the inadequately documented costs of $4,154
at the Jefferson County subrecipient are properly resolved.  In response, the CDC officials agreed with the findings
and recommendations.